*
V

NO.
IN THE
SUPREME COURT OF THE UNITED STATES
<>
CHARLES LAVEL STRINGER,
PETITIONER
VS.
STORESONLINE INC AND CREXENDO, INC.,
RESPONDENTS

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
contains 7335 words, excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 26, 2021.

Charles Lavel Stringer
136 Kimbrough Drive
Jackson, MS 39204
(601)373-3656

